HHS/OIG, Audit - "Review of Undistributable Child Support Collections in
Florida From October 1, 1998, Through December 31, 2005," (A-04-06-03508)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Undistributable Child Support Collections in
Florida From October 1, 1998, Through December 31, 2005," (A-04-06-03508)
January 17, 2008
Complete
Text of Report is available in PDF format (672 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Florida Department of Revenue, Child Support
Enforcement Program agency (the State agency) generally reported program income
for undistributable child support collections in accordance with Federal
requirements.  In Florida, child support collections are not subject to the
States abandoned property laws.  Instead, the State agency has to determine the
collections to be undistributable or unidentifiable before processing them as
program income.  From 1982 through 2005, the State agency accumulated about $31
million in child support collections.  During our audit
period (October 1998 through 2005), the State agency reported only $1.4 million
as program income as a result of an Office of Child Support Enforcement audit.
In 2001 and 2002, the State agency improperly reversed $696,802 ($459,889
Federal share) of the program income related to outstanding checks.  These funds
represented checks that were not exempt from the States abandoned property
laws.
We found that the accumulation of collections was possible, despite the State
agencys compliance with Federal requirements, because of (1) the States
exemption of outstanding checks derived from child support collections from its
abandoned property laws, (2) the State agencys significant delay in
establishing a rule for determining when collections are considered
undistributable, and (3) the lack of a policy to deal with child support checks
that are characterized as distributed but remain uncashed indefinitely.
We recommended that the State agency (1) report program income for outstanding
checks totaling $696,802 ($459,889 Federal share) that was incorrectly reversed
and transfer this amount back to the States General Fund and (2) develop a
rule, as directed by Florida statutes, defining when a collection is deemed
undistributable.  The State agency disagreed with our first recommendation but
agreed with our second recommendation.